Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 MOST STATES ANTICIPATED
IMPLEMENTING STREAMLINED
     ELIGIBILITY AND
   ENROLLMENT BY 2014




                         Stuart Wright
                   Deputy Inspector General for
                    Evaluation and Inspections

                         February 2013
                        OEI-07-10-00530
EXECUTIVE SUMMARY: MOST STATES ANTICIPATE IMPLEMENTING
STREAMLINED ELIGIBILITY AND ENROLLMENT BY 2014
OEI-07-10-00530


WHY WE DID THIS STUDY

The Patient Protection and Affordable Care Act (ACA) requires the Secretary of Health
and Human Services and States to streamline procedures for determining eligibility and
enrolling applicants in State health subsidy programs (i.e., Medicaid, the Children’s
Health Insurance Program (CHIP), and State exchanges) by January 1, 2014.
Specifically, section 1413 of the ACA requires changes to (1) eligibility and enrollment
systems, (2) application forms, and (3) eligibility data sharing among State health subsidy
programs. Given the complexity of the required changes, an assessment of States’
readiness to implement the streamlined systems by the target date can provide useful
information to the Centers for Medicare & Medicaid Services (CMS) and to States.

HOW WE DID THIS STUDY

In March and April 2012, we conducted a survey regarding States’ readiness to
implement streamlined eligibility and enrollment systems. We asked all 50 States and the
District of Columbia (States) questions about (1) eligibility and enrollment systems,
(2) application forms, and (3) eligibility data sharing. We also asked States about
guidance they had received on how to achieve streamlined eligibility and enrollment
requirements, and about how helpful it was.

WHAT WE FOUND

Of the 45 States that responded to the survey, 35 reported that they anticipate
implementing streamlined eligibility and enrollment systems, streamlined application
forms, and data sharing and matching by January 1, 2014. However, States reported
challenges, such as implementing the requirements by the target date and upgrading
outdated eligibility and enrollment systems. They described various funding issues
related to implementing needed changes. States also reported needing information and
guidance, particularly on the Secretary’s application form, the planned Federal data
services hub, and the calculation of Modified Adjusted Gross Income.

WHAT WE CONCLUDE

Although States generally anticipate implementing streamlined eligibility and enrollment
by the target date, they reported needing information and guidance on a number of topics.
CMS should continue to provide guidance to States as they prepare to implement the
streamlined eligibility and enrollment systems. In its comments, CMS described its
ongoing work with States to implement open enrollment for Medicaid, CHIP, and State
exchanges since our survey responses were collected.
TABLE OF CONTENTS

Objectives ....................................................................................................1
Background ..................................................................................................1
Methodology ................................................................................................5
Findings........................................................................................................7
           Thirty-five States reported that they anticipate implementing
           all streamlined eligibility and enrollment requirements by
           January 1, 2014 ................................................................................7
           States reported challenges and areas where further Federal
           guidance is needed ...........................................................................9
Conclusion .................................................................................................12
           Agency Comments and Office of Inspector General Response.....12
Appendixes ................................................................................................13
           A: Number of States Responding to Selected Survey
           Questions........................................................................................13
           B: State-Reported Challenges To Implementing Streamlined
           Eligibility and Enrollment Requirements ......................................14
           C: Agency Comments ...................................................................16
Acknowledgments......................................................................................22
                   OBJECTIVES
                   Based on State survey results as of March and April 2012, to determine the extent
                   to which:
                   1. States anticipate implementing the streamlined eligibility and enrollment
                      requirements of the Patient Protection and Affordable Care Act (ACA) by
                      January 1, 2014; and
                   2. the Centers for Medicare & Medicaid Services’ (CMS) guidance has helped
                      States implement these requirements.

                   BACKGROUND
                   The ACA 1 increases access to health insurance by expanding existing programs
                   and establishing new ones. The ACA authorizes States to expand eligibility for
                   Medicaid to higher income individuals. An estimated 11 million additional
                   beneficiaries will enroll in Medicaid and the Children’s Health Insurance Program
                   (CHIP) by 2022 because of these changes. 2 The ACA also requires the
                   establishment of new State health benefit exchanges (State exchanges) in each
                   State 3—an estimated 26 million people will enroll in the State exchanges by
                   2022. 4 In this report, we will refer to Medicaid, CHIP, and the State exchanges
                   collectively as “State health subsidy programs.” 5
                   Given the anticipated increases in enrollment for State health subsidy programs,
                   the ACA also requires the establishment of streamlined eligibility and enrollment
                   procedures that can accommodate a large volume of applicants and enroll
                   applicants into the correct program.




                   1
                     ACA (P.L. 111-148, enacted on March 23, 2010) was amended by the Health Care and
                   Education Reconciliation Act of 2010 (P.L. 111-152, enacted on March 30, 2010). Together,
                   these laws are referred to as the Affordable Care Act.
                   2
                     Congressional Budget Office (CBO), Estimates for the Insurance Coverage Provisions of the
                   Affordable Care Act Updated for the Recent Supreme Court Decision, July 2012, p. 13. Accessed
                   at http://www.cbo.gov/ on July 30, 2012.
                   3
                     ACA § 1311(b). The purpose of State exchanges is to establish a mechanism to help individuals
                   and businesses find and purchase affordable health insurance. Under the ACA, States may
                   establish their own exchanges or, if they choose not to, the Department of Health and Human
                   Services (HHS) will operate exchanges for them. ACA § 1321(c). States can also elect to
                   establish a partnership exchange, in which HHS and the State work together to operate different
                   functions of the exchange. 77 Fed. Reg. 18310, 18325 (Mar. 27, 2010).
                   4
                     CBO, Health Insurance Exchanges: CBO’s March 2012 Baseline, March 13, 2012. Accessed at
                   http://www.cbo.gov/ on January 25, 2013.
                   5
                     ACA § 1413(e).



Most States Anticipate Implementing Streamlined Eligibility and Enrollment by 2014 (OEI-07-10-00530)        1
                   Streamlined Eligibility and Enrollment Requirements
                   Section 1413 of the ACA requires the Secretary of Health and Human Services
                   (the Secretary) and the States to take certain actions related to streamlining
                   application and enrollment procedures. Under section 1413, the Secretary must
                   establish a system that would enable residents in each State to apply for and enroll
                   in any of that State’s health subsidy programs. The Secretary must develop a
                   single, streamlined application form that all States may adopt and use. 6 Each
                   State must develop a secure electronic interface for exchange of information
                   among programs, and each State program must participate in data-matching
                   agreements for obtaining eligibility information from various sources. In
                   addition, section 2201 of the ACA requires State Medicaid and CHIP agencies to
                   undertake certain coordination and simplification activities and to participate in
                   and comply with the requirements for the system the Secretary establishes. The
                   target date for State Medicaid participation in the streamlined system is January 1,
                   2014. 7 Section 1321 of the ACA also establishes January 1, 2014, as the target
                   date for States that decide to operate exchanges to meet standards the Secretary
                   sets, including eligibility and enrollment streamlining. 8
                   Eligibility and Enrollment Systems. The Secretary must establish a system in
                   which residents of each State can apply for enrollment, receive a determination of
                   eligibility, and participate in applicable State health subsidy programs. 9 This
                   system should automatically enroll individuals who apply for any State health
                   subsidy program in the correct program. For example, if an individual applies for
                   Medicaid, but is found ineligible, the system should automatically determine
                   whether he or she meets the eligibility requirements for CHIP (or another State
                   health subsidy program). If the system determines that the individual is eligible
                   for CHIP, it should enroll him or her in that program without requiring an
                   additional application.
                   Application Forms. Section 1413 of the ACA directs the Secretary to develop and
                   provide to all States a single streamlined form that may be used to apply for
                   coverage through Medicaid, CHIP, and the exchanges. 10 The form must be:
                   •    used to apply for enrollment in all State health subsidy programs;
                   •    filed online, in person, by mail, by telephone, or by facsimile;


                   6
                     CMS plans to release the final version of the Secretary’s application form in 2013.
                   7
                     ACA § 2201 adds § 1943 to the Social Security Act to require that a State implement enrollment
                   simplification and coordination among Medicaid, CHIP, and the State exchanges; § 1943(b)(3) in
                   particular requires State Medicaid and CHIP agencies to participate in and comply with the
                   requirements for systems established under ACA § 1413.
                   8
                     ACA § 1321(b).
                   9
                     ACA § 1413(a).
                   10
                      ACA § 1413(b).



Most States Anticipate Implementing Streamlined Eligibility and Enrollment by 2014 (OEI-07-10-00530)         2
                   •    filed with any of a State’s health subsidy programs; and
                   •    completed easily by applicants. 11
                   A State may use the application form that the Secretary is developing or develop
                   its own form consistent with standards promulgated by the Secretary. On January
                   28, 2013, CMS released materials related to the Secretary’s form, including a list
                   of questions and the business logic that will be contained in the online application,
                   a paper version of the form, and videos depicting the application process. These
                   materials were available for public comment through February 28, 2013.
                   Eligibility Data Sharing. Section 1413 establishes an eligibility data-sharing
                   requirement with three parts. The first part requires that each State develop a
                   secure electronic interface that allows sharing of eligibility data among all of its
                   health subsidy programs to coordinate and verify information regarding an
                   applicant’s eligibility. 12 Each State’s secure electronic interface must allow a
                   determination of eligibility for all the State health subsidy programs based on the
                   information provided on the application form. The second part requires that, to
                   the maximum extent practicable, each State health subsidy program establish,
                   verify, and update eligibility using data-matching arrangements with other
                   agencies within the State and determine applicant eligibility on the basis of
                   reliable third-party data (e.g., wage, employment, and income databases; 13 State
                   vital records information; and Express Lane agencies 14). The third part requires
                   that States establish data-sharing agreements with SSA, IRS, and the Department
                   of Homeland Security (DHS). 15
                   In Guidance for Exchange and Medicaid Information Technology (IT) Systems
                   Version 2.0, released in May 2011, CMS describes its plans for a Federal data
                   services hub to assist States with verifying citizenship, immigration, and tax
                   information with SSA, IRS, and DHS. CMS plans for the hub to support the
                   delivery of information to State health subsidy programs.


                   11
                      ACA § 1413(b). In a proposed Medicaid and CHIP rule, CMS indicated that it would address
                   the readability and accessibility of applications, forms, and other communications in future
                   guidance. 76 Fed. Reg. 51161 (Aug. 17, 2011). As of July 2012, CMS had not published a final
                   rule regarding the readability and accessibility of applications, forms, and other communications.
                   12
                      ACA § 1413(c).
                   13
                      These databases could include State unemployment compensation agencies’ databases, Social
                   Security Administration (SSA) and Internal Revenue Service (IRS) databases, and National
                   Directory of New Hires databases.
                   14
                      An Express Lane agency is defined by section 1902(e)(13)(F)(i) of the Social Security Act as “a
                   public agency that (I) is determined by the State Medicaid agency or the State CHIP agency (as
                   applicable) to be capable of making the determinations of one or more eligibility requirements….”
                   Express Lane agencies vary by State, but often include Women, Infants, and Children Program
                   agencies; Supplemental Nutrition Assistance Program agencies; Temporary Assistance for Needy
                   Families agencies; and other public assistance agencies.
                   15
                      ACA § 1413(c); 76 Fed. Reg. 51164 (Aug. 17, 2011).



Most States Anticipate Implementing Streamlined Eligibility and Enrollment by 2014 (OEI-07-10-00530)           3
                   Guidance to States
                   CMS has released numerous guidance documents related to streamlined eligibility
                   and enrollment systems, including letters to State officials, informational
                   bulletins, grant announcements, proposed and final rules, IT guidance and
                   supplements, and question-and-answer documents. Additionally, CMS has hosted
                   conference calls, Webinars, and a national conference on eligibility and
                   enrollment. 16 At the conclusion of our analysis, the guidance documents released
                   included among others:
                        •    Guidance for Exchange and Medicaid Information Technology (IT)
                             Systems Version 1.0—describing how information technology systems
                             should support and enable business operations and processes for health
                             care coverage through State exchanges and Medicaid. 17
                        •    Guidance for Exchange and Medicaid Information Technology (IT)
                             Systems Version 2.0—establishing a framework and approach for
                             developing IT systems. 18
                        •    Medicaid Program; Eligibility Changes Under the Affordable Care Act of
                             2010—publishing final rules regarding Medicaid and CHIP eligibility and
                             enrollment requirements under the ACA. 19
                        •    Supporting Statement for Data Collection to Support Eligibility
                             Determinations for Insurance Affordability Programs and Enrollment
                             through Affordable Insurance Exchanges, Medicaid and Children’s Health
                             Insurance Program Agencies—presenting information on the data
                             elements planned for inclusion in the Secretary’s single streamlined
                             application form. 20
                   Funding for Streamlined Eligibility and Enrollment Systems
                   Enhanced Federal Medicaid Matching Funds for Eligibility and Enrollment
                   System Upgrades. CMS amended its regulations to make enhanced Federal
                   financial participation available to State Medicaid programs for activities related

                   16
                      CMS hosted a national conference on Medicaid and CHIP eligibility and enrollment in
                   September 2011, entitled On the Road to 2014: Medicaid and Children's Health Insurance
                   Program (CHIP) Eligibility and Enrollment.
                   17
                      CMS, Guidance for Exchange and Medicaid Information Technology (IT) Systems Version 1.0,
                   November 3, 2010. Accessed at https://www.cms.gov/ on August 31, 2011.
                   18
                      CMS, Guidance for Exchange and Medicaid Information Technology (IT) Systems Version 2.0,
                   May 2011. Accessed at http://www.medicaid.gov on July 11, 2012.
                   19
                      77 Fed. Reg. 17143 (Mar. 23, 2012).
                   20
                      CMS, Supporting Statement for Data Collection to Support Eligibility Determinations for
                   Insurance Affordability Programs and Enrollment through Affordable Insurance Exchanges,
                   Medicaid and Children’s Health Insurance Program Agencies; Appendix A: Data Elements for
                   Application to Support Eligibility Determinations for Enrollment through Affordable Insurance
                   Exchanges, Medicaid and Children’s Health Insurance Program Agencies, July 9, 2012.
                   Accessed at http://www.medicaid.gov on July 11, 2012.



Most States Anticipate Implementing Streamlined Eligibility and Enrollment by 2014 (OEI-07-10-00530)       4
                   to eligibility determination systems. 21 Under the amended regulations, approved
                   States will receive a Federal matching rate of 90 percent of a State’s costs for
                   design, development, installation, or enhancement of eligibility and enrollment
                   systems until December 31, 2015. States will receive 75-percent matching
                   Federal funds to assist in operating such systems. 22
                   State Planning and Establishment Grants. State Planning and Establishment
                   grants are available to all 50 States and the District of Columbia (States) for
                   planning and establishing State exchanges. 23 States may use these funds in a
                   variety of ways, including to assess current information technology systems;
                   determine the statutory and administrative changes needed to build exchanges;
                   and coordinate streamlined eligibility and enrollment systems across State health
                   programs, including Medicaid and CHIP.

                   METHODOLOGY
                   We conducted an online survey in March and April 2012 to assess States’
                   readiness to implement streamlined eligibility and enrollment requirements. We
                   asked the States to respond to the survey, which was structured around the three
                   main requirements of section 1413: (1) development of an eligibility and
                   enrollment system, (2) application forms, and (3) eligibility data sharing. We also
                   asked States about the guidance they had received on streamlined eligibility and
                   enrollment requirements and about how helpful it was.
                   Data Collection and Analysis
                   Identification of Contacts. We requested from CMS a list of contacts
                   knowledgeable about the States’ efforts to implement streamlined eligibility and
                   enrollment. In response, CMS provided contact information for each State
                   Medicaid Director. We sent a letter to each State Medicaid Director requesting
                   that a contact person knowledgeable about the State’s efforts to implement
                   streamlined eligibility and enrollment respond to our survey. In some cases, the
                   contact people identified by the State Medicaid Directors were not employed by
                   the State Medicaid agencies. For example, some States have set up offices
                   specifically to coordinate implementation of ACA-related initiatives; in each of
                   those States, we were referred to a contact person in that office. We created a
                   database of the designated contacts, including names, telephone numbers, and
                   email addresses.

                   21
                      76 Fed. Reg. 21950 (Apr. 19, 2011).
                   22
                      Ibid.
                   23
                      Office of Consumer Information and Insurance Oversight, State Planning and Establishment
                   Grants for the Affordable Care Act’s Exchanges, Funding Opportunity Number: IE-HBE-10-001,
                   July 29, 2010. In September 2010, CMS announced that it had awarded State Planning and
                   Establishment grants to 48 States and the District of Columbia. Alaska and Minnesota did not
                   apply for the grant.



Most States Anticipate Implementing Streamlined Eligibility and Enrollment by 2014 (OEI-07-10-00530)     5
                   Data Collection and Response Rate. We sent an email asking the designated
                   contact for each State to respond to the online survey. If a contact did not respond
                   to the email, we sent a followup email asking for a response. If a contact did not
                   respond to the followup email, we contacted him or her again by telephone and
                   email. After 1 month of followup, we had not received survey responses from six
                   States, which we considered to be nonresponders: Connecticut, Louisiana,
                   Massachusetts, Missouri, Utah, 24 and Wisconsin. 25 We received responses from
                   45 States, for a response rate of 88 percent. However, the 45 responding States
                   did not necessarily answer every question. At least 39 States responded to every
                   question that required a response.
                   Online Survey and Analysis of Responses. The online survey focused on actions
                   that States have taken or are planning to take to implement streamlined eligibility
                   and enrollment. Additionally, the survey inquired as to whether each State
                   anticipated implementing streamlined eligibility and enrollment procedures by
                   January 1, 2014, the target date for State Medicaid programs and exchanges to
                   conform to requirements for the Secretary’s streamlined system. 26 Finally, the
                   survey asked States about the guidance they had received from CMS and about
                   whether they found it helpful.
                   Limitations
                   The data presented in our findings reflect States’ responses to our survey; we did
                   not verify responses.
                   Survey responses were received from March 8 to April 30, 2012. CMS has since
                   issued additional program and policy guidance on State options for structuring
                   and implementing exchanges and eligibility systems. States may have responded
                   differently had they completed our survey after CMS issued guidance on these
                   matters.
                   Our findings reflect States’ assessments, as of March–April 2012, of their own
                   readiness to implement streamlined eligibility and enrollment procedures.
                   Standards
                   This study was conducted in accordance with the Quality Standards for Inspection
                   and Evaluation issued by the Council of the Inspectors General on Integrity and
                   Efficiency.

                   24
                      State officials stated that because Utah implemented many reforms to its State health care
                   programs before the ACA was enacted, they were unable to respond to our survey questions as
                   they were worded.
                   25
                      These six States represented less than 5 percent of national Medicaid enrollment at the end of
                   2010. Kaiser Commission on Medicaid and the Uninsured, Monthly Medicaid Enrollment (in
                   thousands), December 2010. Accessed at www.statehealthfacts.org on August 21, 2012.
                   26
                      Under ACA § 2201, State Medicaid and CHIP programs must participate in and comply with
                   HHS requirements for a streamlined enrollment system by January 1, 2014. Under ACA § 1321,
                   States electing to operate exchanges would have to take certain initial steps by January 1, 2014.



Most States Anticipate Implementing Streamlined Eligibility and Enrollment by 2014 (OEI-07-10-00530)          6
                    FINDINGS
                    Thirty-five States reported that they anticipate implementing
                    all streamlined eligibility and enrollment requirements by
                    January 1, 2014
                    Of the 45 States that responded to the online survey, 35 reported that they
                    anticipate implementing all of the following: streamlined eligibility and
                    enrollment systems, streamlined application forms, and data sharing and
                    matching. 27 Table 1 provides an overview of States’ responses related to each of
                    the requirements.
  Table 1: State Responses Regarding Streamlined Eligibility and Enrollment Requirements

   Type of Requirement                                                             Yes       No   No Response

   All Requirements
   States that anticipate implementing streamlined eligibility and
   enrollment systems, streamlined application forms, and data sharing                  35    9             7
   and matching by January 1, 2014
   Eligibility and Enrollment Systems

   States that anticipate having systems that meet requirements related
                                                                                        38    5             8
   to eligibility and enrollment systems by January 1, 2014

   Application Forms

   States that anticipate having application forms that meet requirements
                                                                                        40    2             9
   by January 1, 2014

   Data Sharing and Matching

   States that anticipate implementing all eligibility data sharing
                                                                                        37    5             9
   and matching requirements
   States that anticipate having secure electronic interfaces that meet
                                                                                        37    5             9
   requirements by January 1, 2014
   States that anticipate having data sharing and matching agreements
                                                                                        40    2             9
   that meet requirements by January 1, 2014

  Source: Office of Inspector General (OIG) analysis of State survey responses, 2012.

                    In April 2012, 38 States anticipated having eligibility and enrollment
                    systems that meet requirements
                    Five States did not anticipate having systems that can determine eligibility for and
                    enroll applicants in applicable State health subsidy programs by January 1, 2014.
                    These States are Florida, Idaho, Nebraska, New Hampshire, and Oklahoma.
                    When asked for further information, three of these States explained why they did
                    not anticipate having such systems. 28 Nebraska explained that it would take
                    2 to 4 years to implement a system that would meet all of the requirements. New

                    27
                      See Appendix A for the number of States responding to each survey question.
                    28
                      The other two States did not explain why they did not anticipate having systems that met the
                    requirements by the target date.



Most States Anticipate Implementing Streamlined Eligibility and Enrollment by 2014 (OEI-07-10-00530)            7
                   Hampshire explained that it was having difficulty obtaining funding to make the
                   necessary system changes. Oklahoma explained that the State’s Medicaid
                   eligibility system was being enhanced where possible; however, staff were not
                   certain that the system would meet the requirements by that time.
                   In April 2012, 40 States anticipated having application forms that
                   meet the streamlined eligibility and enrollment requirements
                   States may create their own streamlined application forms consistent with
                   standards promulgated by the Secretary or adopt the application form that the
                   Secretary is developing. In April 2012, 40 States anticipated having forms that
                   would satisfy the Secretary’s requirements by January 1, 2014. Thirty of these
                   forty States were unsure whether they would develop State-specific forms or use
                   the form the Secretary is developing. Of the remaining 10 States, 6 will use the
                   form the Secretary is developing and 4 will create their own. Finally, two States
                   explained that they did not have enough information to determine whether they
                   would have compliant forms.
                   In April 2012, 37 States anticipated implementing all three eligibility
                   data-sharing requirements
                   In April 2012, 37 States anticipated implementing all three eligibility data-sharing
                   requirements by January 1, 2014; varying numbers of States anticipated
                   implementing individual requirements. 29 Thirty-two States indicated that, by
                   January 1, 2014, their planned electronic interfaces will allow determinations of
                   eligibility for all of their health subsidy programs based on the information
                   provided on the single application form. Seven States indicated that their planned
                   electronic interfaces will not allow determinations of eligibility for all State health
                   subsidy programs based on the single application form. These States explained
                   that they did not have enough information to state with certainty what their
                   planned electronic interfaces would be capable of by January 1, 2014. 30
                   The ACA requires States to share data among all of their health subsidy programs
                   to determine Medicaid eligibility and to match data with SSA, IRS, and DHS.
                   Forty States anticipated having data sharing and matching agreements that meet
                   the streamlined eligibility and enrollment requirements by January 1, 2014.
                   Thirty-four States indicated that they currently have data-sharing agreements with
                   at least one other agency within the State; however, the agencies with which these
                   agreements existed differed among States (see Table 2).


                   29
                      See Table 1, Data Sharing and Matching.
                   30
                      One of these seven States did not comment specifically on this question but, in other responses,
                   indicated that difficulties with gaining access to funding were impeding its progress with planning
                   and implementing all the streamlined eligibility and enrollment requirements and making State
                   staff uncertain whether they could meet the January 1, 2014, target date.



Most States Anticipate Implementing Streamlined Eligibility and Enrollment by 2014 (OEI-07-10-00530)            8
                   Table 2: States’ Data-Sharing Agreements With Other State Agencies

                                                                         Number of States With Data-Sharing
                     Agency
                                                                                                Agreements

                     Temporary Assistance for Needy Families                                            28

                     Vital Records Department                                                           27

                     Supplemental Nutrition Assistance
                                                                                                        27
                     Program

                   Source: OIG analysis of State online survey responses, 2012.


                   Thirty-one States indicated that they currently have data-matching agreements
                   with at least one of the required Federal agencies (see Table 3).

                   Table 3: States’ Data-Matching Agreements With Federal Agencies
                                                      Number of States With
                     Agency                                 Data-Matching
                                                               Agreements
                     SSA                                                      31

                     IRS                                                      20

                     DHS                                                      13

                   Source: OIG analysis of State online survey responses, 2012.



                   States reported challenges and areas where further Federal
                   guidance is needed
                   Although States generally indicated that they will meet streamlined eligibility and
                   enrollment requirements by January 1, 2014, they also reported encountering
                   challenges. These included the difficulty of meeting the implementation target
                   date, outdated eligibility and enrollment systems, and lack of funds to implement
                   streamlined eligibility and enrollment systems. States found CMS guidance on
                   streamlined eligibility and enrollment helpful. However, they reported needing
                   further guidance on a number of subjects, including the Secretary’s application
                   form and the planned Federal data hub.
                   States reported three main challenges to implementing streamlined
                   eligibility and enrollment systems
                   These challenges were the difficulty of meeting the target date, outdated
                   eligibility and enrollment systems, and lack of funds to implement streamlined
                   eligibility and enrollment systems.
                   Implementing the ACA requirements by January 1, 2014, was the challenge that
                   States most frequently reported. Twenty-six States indicated that implementing
                   systems that meet streamlined eligibility and enrollment requirements by that date
                   would be difficult because of the complexity of the systems required.
                   Eleven States reported that having outdated eligibility and enrollment systems
                   was a challenge. These States described their existing eligibility systems as being

Most States Anticipate Implementing Streamlined Eligibility and Enrollment by 2014 (OEI-07-10-00530)          9
                   decades old and lacking the functionality needed to implement streamlined
                   eligibility requirements. One State summed up both of these challenges, stating,
                   “Without a prior online system, we are having to create something from scratch.
                   Creating both the policy and technical capacity in such a short timeframe, with
                   inadequate Federal guidance, is the biggest hurdle.”
                   The third commonly reported challenge was lack of funds and delay in receiving
                   Federal funds. States also reported that slow authorization processes for State
                   funds approval were challenging. For instance, one State reported that
                   “[D]iscussions are still occurring in the [State] legislature and we do not yet have
                   spending authority for our … grant.” 31 This State received its State Planning and
                   Establishment grant award from CMS on September 30, 2010, and responded to
                   our survey in March 2012. Thus, a year and a half had elapsed while the State
                   was unable to spend its grant funds because of the continuing discussions in its
                   legislature. States reported other challenges as well; see Appendix B for a
                   complete list.
                   In April 2012, States reported finding CMS guidance helpful;
                   however, they needed further guidance on a number of subjects
                   In April 2012, 38 States reported finding the CMS guidance they had received
                   helpful as they prepared to implement the streamlined eligibility and enrollment
                   systems. However, many States indicated that they need further guidance on
                   various subjects. As previously noted, CMS has released additional guidance
                   since the completion of our survey; this guidance may have fulfilled States’
                   reported needs.
                   Sixteen States reported needing further information about the format and
                   appearance of the Secretary’s application form. One State said, “It is difficult to
                   answer … questions, let alone plan on [sic] as the secretary-developed form has
                   not yet been released to States.” CMS released draft application materials for
                   public comment in January 2013, and plans to release the final version of the
                   Secretary’s application form later in 2013.
                   Fourteen States reported needing more information about the planned Federal data
                   services hub. States reported needing to know how they will access the planned
                   hub and what information will be available through it. As one State expressed,
                   “Until we have clear guidance from CMS on the Federal data hub and what



                   31
                     This State was referencing its State Planning and Establishment grant. These grant funds were
                   for a variety of purposes related to planning and establishing State exchanges, including
                   coordinating streamlined eligibility and enrollment systems across State health subsidy programs.
                   Office of Consumer Information and Insurance Oversight, State Planning and Establishment
                   Grants for the Affordable Care Act’s Exchanges, Funding Opportunity Number: IE-HBE-10-001,
                   July 29, 2010.



Most States Anticipate Implementing Streamlined Eligibility and Enrollment by 2014 (OEI-07-10-00530)          10
                      information will be available through the hub, it is difficult to determine what
                      other [data sharing agreements] need to be established.”
                      Ten States reported needing additional and more specific guidance on the
                      Modified Adjusted Gross Income (MAGI) requirements, particularly on MAGI
                      conversion, determining household composition, and calculating income (see
                      Table 4). 32
                Table 4: Subjects on Which States Reported Needing Further Guidance*
                    Subject                                                                                      Number of States

                    Format and appearance of the Secretary’s application form                                                       16

                    How to use the Federal data services hub                                                                        14

                    MAGI final rules, income standards, calculation methodology                                                     10

                    Interface between State exchange and Federal hub                                                                9

                    Data elements available through the Federal data services hub and required on
                                                                                                                                    7
                    the Secretary’s application form

                    Eligibility and enrollment systems for Federal and partnership exchanges**                                      5

                    How to determine and claim Federal Medical Assistance Percentage correctly†                                     4

                    Standards for making real-time eligibility decisions                                                            3

                    Data matching with IRS                                                                                          3

                    Federal exchanges for States that have chosen not to run State exchanges                                        2

                    Coordinating various application requirements and processing timeframes among
                                                                                                                                    1
                    State health subsidy programs

                    National Information Exchange Model††                                                                           1

                    Reasonable compatibility between self-attested information and data sources                                     1

                Source: OIG analysis of State online survey responses, 2012.
                * These subjects are also listed in Appendix A because States described the lack of guidance on these subjects as
                challenges to implementation of streamlined eligibility and enrollment.
                ** In a partnership exchange, the State and HHS work together to operate the exchange.
                †
                 Federal Medical Assistance Percentages are used to determine the Federal matching funds rates for certain State
                medical and social service programs, including Medicaid.
                ††
                  The National Information Exchange Model is a seamless, standards-based, interoperable model for data exchange
                among government agencies.




                      32
                         The ACA requires the simplification of financial eligibility by using MAGI, a single standard to
                      determine eligibility for most Medicaid and CHIP enrollees. In the March 2012 final rules on
                      changes to Medicaid and CHIP eligibility, CMS gives definitions and methodologies related to
                      calculating MAGI. 77 Fed. Reg. 17143 (Mar. 23, 2012). See also National Medicare Training
                      Program, Module 12: Medicaid & the Children’s Health Insurance Program (CHIP). Accessed
                      at https://www.cms.gov on June 29, 2012.



Most States Anticipate Implementing Streamlined Eligibility and Enrollment by 2014 (OEI-07-10-00530)                                     11
                   CONCLUSION
                   Of the 45 States that responded to the online survey, 35 reported that they
                   anticipate implementing all of the following by January 1, 2014: streamlined
                   eligibility and enrollment systems, streamlined application forms, and data
                   sharing and matching. However, we collected the responses before additional
                   CMS program and policy guidance was issued, including guidance on any
                   implications of the Supreme Court’s decision regarding Medicaid program
                   requirements. States’ responses may have been different had they completed the
                   survey after this information became available. States reported significant
                   challenges with issues such as implementing the requirements by the target date,
                   upgrading outdated eligibility and enrollment systems, and obtaining funding to
                   implement needed changes. States reported needing information and guidance,
                   particularly on the Secretary’s application form, the planned Federal data services
                   hub, and MAGI. We conclude that CMS should continue to provide guidance to
                   States as they prepare to implement streamlined eligibility and enrollment
                   systems.

                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   In its comments, CMS described steps that it has taken, since we collected our
                   survey responses, to help States implement open enrollment for Medicaid, CHIP,
                   and State exchanges. CMS described actions it has taken in each of the following
                   areas: eligibility and enrollment systems development, streamlined application
                   form development, the Federal data services hub, State operations and technical
                   assistance and operational tools, and exchange grants and federally facilitated
                   exchange development. We recognize CMS’s commitment to guiding and
                   assisting States in implementing streamlined eligibility and enrollment systems.




Most States Anticipate Implementing Streamlined Eligibility and Enrollment by 2014 (OEI-07-10-00530)   12
                     APPENDIX A
                     We asked all 50 States and the District of Columbia (States) to respond to an
                     online survey. The 45 States that responded did not always answer every
                     question. The table below shows the number of States responding to each
                     question. The questions have been paraphrased for the sake of brevity.
  Number of States Responding to Selected Survey Questions

   Survey Question                                                                                      Responding           Not Responding

   All Requirements

   States that anticipate implementing all three types of streamlined eligibility and
                                                                                                                    44                           7
   enrollment requirements by January 1, 2014*

   Eligibility and Enrollment Systems

   Do you anticipate having a system that meets all requirements of section 1413
                                                                                                                    43                           8
   related to eligibility and enrollment systems by January 1, 2014?

   Application Forms

   Do you anticipate having an application form that meets the requirements of
                                                                                                                    42                           9
   section 1413 by January 1, 2014?
   Have you decided whether you will develop a State-specific application form
                                                                                                                    40                          11
   or use the Secretary’s application form?
   Will you develop a State-specific application form or use the Secretary’s
                                                                                                                    10                           0
   application form?**

   Data Sharing and Matching
   States that anticipate implementing all eligibility data sharing and matching
                                                                                                                    42                           9
   requirements*
   Do you anticipate having a secure electronic interface that meets the
                                                                                                                    42                           9
   requirements of section 1413 by January 1, 2014?
   Do you anticipate having data sharing and matching agreements that meet
                                                                                                                    42                           9
   the requirements of section 1413 by January 1, 2014?
   Will your planned electronic interface allow determinations of eligibility for all
   of the State’s health subsidy programs based on the information provided on                                      39                          12
   the single application form?
   With which other agencies within the State do you currently have data-sharing
                                                                                                                    40                          11
   agreements?

   With which Federal agencies do you currently have data-sharing agreements?                                       41                          10

   Challenges

   States that reported encountering challenges in implementing the streamlined
                                                                                                                    45                           6
   eligibility and enrollment requirements*

   Guidance

   Have you found the guidance available to date regarding implementation of
                                                                                                                    43                          10
   streamlined eligibility and enrollment requirements helpful?
   States that reported needing additional guidance to progress toward
   implementation of the streamlined eligibility and enrollment requirements in                                     45                           6
   section 1413*

   *These rows represent the total responses to multiple questions in the online survey.
   **Only the States that had decided whether to develop State-specific applications or to use the Secretary’s form were asked this question.

   Source: Office of Inspector General analysis of State survey responses, 2012.




Most States Anticipate Implementing Streamlined Eligibility and Enrollment by 2014 (OEI-07-10-00530)                                            13
                    APPENDIX B
                    We asked all 50 States and the District of Columbia (States) to respond to an
                    online survey. Responding States reported numerous challenges in implementing
                    streamlined eligibility and enrollment requirements, including the need for
                    guidance and information on a number of subjects. A categorized list of the
                    reported challenges follows.
State-Reported Challenges To Implementing Streamlined Eligibility and Enrollment Requirements
                                                                                                                                      Number of
 Challenge
                                                                                                                                States Reporting
 Eligibility and Enrollment Systems/Technical Issues
    Difficulty of improving outdated systems to implement requirements                                                                        11
    Need for standards for making real-time eligibility decisions                                                                              3
    Shortage of vendors to build new systems                                                                                                   2
    Insufficient Internet/network bandwidth to implement system upgrades                                                                       1
 Complexity of Requirements
    Difficulty of collecting needed information in a simple streamlined form                                                                  10
    Difficulty of interfacing between State exchange and Federal hub                                                                           9
    Difficulty of requesting information to determine eligibility for different populations and programs (e.g., Modified
                                                                                                                                               5
    Adjusted Gross Income (MAGI) and non-MAGI)
    Coordinating varying application requirements and processing timeframes among State programs                                               1
 Effects on State Operations
    Influx of enrollees                                                                                                                        9
    Need for extensive staff training on new eligibility and enrollment system                                                                 6
    Greater State assistance needed for applicants who cannot apply online                                                                     3
    Changing mindset/culture of State staff from paper-based application process to online application and
                                                                                                                                               2
    enrollment
    Reduction of available jobs for State/county workers because of increased efficiency of improved eligibility
                                                                                                                                               1
    system
 Data Needs
    Need for information on data elements available through the Federal data services hub and required on the
                                                                                                                                               7
    Secretary’s application form
    Need for information on data that will be available through Internal Revenue Service data matching                                         1
    Renegotiating data-sharing agreements                                                                                                      1
 Guidance
    Insufficient guidance overall                                                                                                             27
    Format and appearance of the Secretary’s application form                                                                                 16
    How to use the Federal data services hub                                                                                                  14
    MAGI final rules, income standards, calculation methodology                                                                               10
    Need for information on eligibility and enrollment systems for Federal and hybrid exchanges                                                5
    Need for information on how to determine and claim Federal Medical Assistance Percentage correctly                                         4
    Need for information regarding Federal exchanges for States that have chosen not to run State exchanges                                    2
    Delay in Federal review of documents                                                                                                       2
    Need for information on National Information Exchange Management                                                                           1
    Need for information regarding reasonable compatibility between self-attested information and data sources                                 1
                                                                                                                           continued on next page


Most States Anticipate Implementing Streamlined Eligibility and Enrollment by 2014 (OEI-07-10-00530)                               14
State-Reported Challenges To Implementing Streamlined Eligibility and Enrollment Requirements
(Continued)
                                                                                                                            Number of
 Challenge
                                                                                                                      States Reporting
 Funding
     Difficulty in allocating funds                                                                                                 6
     Lack of funds                                                                                                                  6
     Delay in receiving funds from Federal Government                                                                               2
 Legislative and Policy Concerns
     Slow/difficult approval process within State legislatures                                                                      6
     Need for resolution of legal uncertainty                                                                                       3
     Conflict between less stringent new Federal eligibility policies and more stringent State eligibility policies                 3
     Policy conflicts and increased burden on State and consumers stemming from the streamlining of Medicaid
                                                                                                                                    1
     but not other public assistance programs
 Timeframes
     Aggressive timeframes                                                                                                         26
     Not enough time to train staff                                                                                                 4
Source: Office of Inspector General analysis of State survey responses, 2012.




Most States Anticipate Implementing Streamlined Eligibility and Enrollment by 2014 (OEI-07-10-00530)                        15
                     APPENDIXC
                     Agency Comments



  .( ."

      . t:. 	
   ~~·J
      ·c..

                  DEPARTMENT OF HEALTH & HUMAN SERVICES                                     Centers lor Medicare & Medic:ald Services

    ,.._                                                                                    Offiu of tilt AdministT11tor
                                                                                            ~OC20201
             DATE: 	         DEC 2 0 2U12
             TO: 	          Daniel R. Levinson 

                            lnspec,tor General 

                                                 /S/
             FROM: 	        ~ l'avenner      

                            Acting Administrator 


             SUBJECT: 	 Office of Inspector General (OIG) Draft Report: ''Most States Anticipate
                        Implementing Streamlined Eligibility and Enrollment by 2014" (OEI-07-10-00530)


             The Centers for Medicare &Medicaid Services (CMS) has reviewed the above mentioned draft OIG
             report. While we do not have substantive or technical comments on the findings in the report. given
             the timing of the survey ofstates that was conducted, we would like to provide some further
             information and context for CMS's collective work with states to implement the changes needed to
             be ready for open enrollment for the Exchange. Medicaid and the Children's Health Insurance
             Program (CHIP) in October 2013.

             The OIG's report assesses the status of states' plans and efforts underway to meet the requirements of
             section 1413 of the Affordable Care Act. which involves changes to states· eligibility and enrollment
             systems; application fonns; and eligibility data sharing capabilities across programs. OIG conducted
             a survey of states in April2012 to assess their readiness to implement these changes and also
             reviewed the guidance that CMS has provided to date. The report notes that states indicated areas
             \\'here additional federal guidance is needed . Since that time. CMS has been engaged in a range of
             activities to assist states so that they will be ready for 2014.

             We appreciate OJG's efforts to identify the key areas of implementation that are critical to achieving
             readiness for 2014 and agree that CMS plays an important role in assisting states, through guidance
             and other technical assistance efforts, in meeting this timeframe. In many states, readiness is being
             achieved through the work of many agencies, including Exchanges, Medicaid and CHIP entities. As
             such, CMS has tailored its technical assistance and support activities according to the agencies
             engaged in each state.

             Following is an overview of the work that is currently underway to ensure that states and the federal
             government have the systems and policy tools in place to begin enrollment in October 2013.
             Additionally, on December I 0, 2012, the Department of Health and Human Services (HHS)
             announced the conditional approval of six states that applied early and are on track to meet all
             Exchange deadlines in order to setup their own state-based Exchange. These early approval states
             include: Colorado, Connecticut, Massachusetts, Maryland, Oregon, and Washington.




Most States Anticipate Implementing Streamlined Eligibility and Enrollment by 2014 (OEI-07-10-00530)                            16
                   Agency Comments (Continued)




Most States Anticipate Implementing Streamlined Eligibility and Enrollment by 2014 (OEI-07-10-00530)   17
                   Agency Comments (Continued)




Most States Anticipate Implementing Streamlined Eligibility and Enrollment by 2014 (OEI-07-10-00530)   18
                   Agency Comments (Continued)




Most States Anticipate Implementing Streamlined Eligibility and Enrollment by 2014 (OEI-07-10-00530)   19
                   Agency Comments (Continued)




Most States Anticipate Implementing Streamlined Eligibility and Enrollment by 2014 (OEI-07-10-00530)   20
                   Agency Comments (Continued)




Most States Anticipate Implementing Streamlined Eligibility and Enrollment by 2014 (OEI-07-10-00530)   21
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Brian T. Pattison, Regional
                   Inspector General for Evaluation and Inspections in the Kansas City regional
                   office, and Brian T. Whitley, Deputy Regional Inspector General.
                   Michala Walker served as the team leader for this study. Other Office of
                   Evaluation and Inspections staff from the Kansas City regional office who
                   conducted the study include Michael Barrett, Jordan Clementi, and
                   Rae Hutchison. Central office staff who provided support include Kevin Farber,
                   Kevin Manley, and Debra Roush.




Most States Anticipate Implementing Streamlined Eligibility and Enrollment by 2014 (OEI-07-10-00530)   22
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
